                                                                                      Report No. 05-004
                                                                                         February 2005


                                                  Follow-up Audit of the FDIC’s Virtual
                                                  Supervisory Information on the Net
                                                  Application
Purpose of Audit                                  Results of Audit
The Virtual Supervisory Information on the
Net Application (ViSION) is a major               The FDIC has made substantial progress in
application that provides access to financial,    implementing corrective action addressing the
examination, and supervisory information on       recommendations in the prior audit report. All of the
financial institutions. In July 2004, we issued   recommendations are considered resolved.
Audit Report No. 04-027, entitled, FDIC’s
Virtual Supervisory Information on the Net        Five of the six recommendations are closed, and
Application (ViSION). The report made             corrective action on the remaining open
recommendations to improve key management         recommendation is expected to be completed by the
and operational controls that provide security    end of March 2005.
for ViSION.

The objective of this follow-up audit was to
determine the adequacy of the progress that the
FDIC has made in implementing the agreed-to
corrective actions from our prior audit report
and the effectiveness of those actions.
